HHS/OIG, Audit -"Audit of Californias Medicaid Inpatient Disproportionate Share Hospital Payments for Los Angeles County Hospitals, State Fiscal Year 1998,"(A-09-02-00071)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Californias Medicaid
Inpatient Disproportionate Share Hospital Payments for Los Angeles County
Hospitals, State Fiscal Year 1998," (A-09-02-00071)
May 30, 2003
Complete
Text of Report is available in PDF format (2.49 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report
points out that the California Department of Health Services (state) made
disproportionate share hospital (DSH) payments to four Los Angeles County
hospitals that exceeded the hospitals uncompensated care costs (UCC) limits
for state fiscal year 1998.  The UCC limits as determined by the state
did not comply with the purpose of the Omnibus Budget Reconciliation Act
of 1993 and the Centers for Medicare & Medicaid Services (CMS) requirements
and implementing guidance.  The excess DSH payments to the hospitals
totaled over $195 million ($98 million federal share).  The UCC limits
were overstated because the state; (1) used projected amounts instead of
actual incurred costs and payments for the year in which hospital services
were rendered, (2) did not limit total operating expenses to amounts that
would be allowable under Medicare cost principles, and (3) inappropriately
included bad debts as an additional operating expense.  We recommended
that the state work with CMS to address and resolve the $98 million federal
share of the overpayment.  The state generally disagreed with our findings.